<html>
<title> - REAUTHORIZATION OF THE VIOLENCE AGAINST WOMEN ACT</title>
<body><pre>[Senate Hearing 109-1033]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 109-1033
 
           REAUTHORIZATION OF THE VIOLENCE AGAINST WOMEN ACT 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JULY 19, 2005

                               ----------                              

                          Serial No. J-109-33

                               ----------                              

         Printed for the use of the Committee on the Judiciary


















           REAUTHORIZATION OF THE VIOLENCE AGAINST WOMEN ACT


















                                                       S. Hrg. 109-1033

           REAUTHORIZATION OF THE VIOLENCE AGAINST WOMEN ACT

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2005

                               __________

                          Serial No. J-109-33

                               __________

         Printed for the use of the Committee on the Judiciary

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director























                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     4
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................   331
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......    20
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................   362
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3
    prepared statement...........................................   367
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     6
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Carr, M.L., President and Chief Executive Officer, WARM2kids, and 
  Spokesperson, Family Violence Prevention Fund, San Francisco, 
  California.....................................................    22
Hayek, Salma, Avon Foundation, New York, New York................    25
Leary, Mary Lou, Executive Director, National Center for Victims 
  of Crime, Washington, D.C......................................    18
Rosenthal, Lynn, Executive Director, National Network to End 
  Domestic Violence, Washington, D.C.............................    16
Sexton, Edmund M., Sr., Sheriff, Tuscaloosa County, Alabama, and 
  President National Sheriffs' Association,......................     9
Stuart, Diane M., Director, Office of Violence Against Women, 
  Department of Justice, Washington, D.C.........................     7

                         QUESTIONS AND ANSWERS

Responses of Diane M. Stuart to questions submitted by Senator 
  Coburn.........................................................    31

                       SUBMISSIONS FOR THE RECORD

American Civil Liberties, Union, Caroline Fredrickson, Direct, 
  LaShawn Warren, Legislative Counsel, Lenora M. Lapidus, 
  Director, Washington, D.C., prepared statement.................   300
Carbon, Susan B., Supervisory Judge, Grafton County, New 
  Hampshire Judicial Branch Family Division, Plymouth, New 
  Hampshire, letter..............................................   310
Carr, M.L., President and Chief Executive Officer, WARM2kids, and 
  Spokesperson, Family Violence Prevention Fund, San Francisco, 
  California, prepared statement.................................   312
Carter, Marybeth, President, National Alliance to End Sexual 
  Violence, Sacramento, California, prepared statement...........   314
Charron, Paul R., Chairman of the Board, Chief Executive Officer, 
  Liz Claiborne Inc, New York, letter............................   323
Evans, Robert D., on behalf of The American Bar Association, 
  Washington, D.C., prepared statement...........................   325
Forster, Corita R., Beloit Domestic Violence Center, Beloit, 
  Wisconsin, letter..............................................   333
Fulcher, Juley and Victoria Sadler, Break the Cycle, Washington, 
  D.C, prepared statement........................................   334
Gore, Peter M., Senior Governmental Affairs Specialist, Maine 
  State Chamber of Commerce, Augusta, Maine, Letter..............   354
Harman International, Industries, Incorporated, Lynn Harman, 
  Corporate Counsel, Woodbury, New York, letter..................   355
Hayek, Salma, Avon Foundation, New York, New York, statement.....   357
Kingsbury, Marie F., Executive Director, The Women's Center, 
  Inc., Waukesha, Wisconsin, letter..............................   366
Leary, Mary Lou, Executive Director, National Center for Victims 
  of Crime, Washington, D.C., statement..........................   370
Lee, Debbie, Managing Director for Health Programs on behalf of 
  Family Violence Prevention Fund, Washington, D.C., prepared 
  statement......................................................   382
The Legal Aid Society Employment Law Center, Elizabeth Kristen, 
  Staff Attorney, San Francisco, California, letter..............   389
Legal Momentum Advancing Women's Rights, Washington, D.C., 
  prepared statement.............................................   391
Men Supporting VAWA, Dick Bathrick, and Greg Laughlin, Atlanta, 
  Georgia, joint letter..........................................   417
Monreal, Carey, President, Chief Executive Officer, and Linda 
  Mayfield, Director Family Violence Services, Milwaukee Women's 
  Center, Milwaukee, Wisconsin, letter...........................   419
Napolitano, Janet, Governor, State of Arizona, Phoenix, Arizona, 
  letter.........................................................   421
National Child Abuse Coalition, Thomas L. Birch, Legislative 
  Counsel, Washington, D.C., letter and prepared statement.......   423
National Coalition Against Domestic Violence, Washington, D.C., 
  prepared statement.............................................   428
National Law Center on Homelessness & Poverty, Washington, D.C., 
  prepared statement.............................................   458
New Horizons Shelter and Women's Center, Deb Hansen, Executive 
  Director, La Crosse, Wisconsin, letter.........................   464
North Carolina Department of Justice, Roy Cooper, Attorney 
  General, Department of Justice, Raleigh, North Carolina, letter   466
Orloff, Leslye, Associate Vice President and Director, Immigrant 
  Women Program, Legal Momentum, prepared statement..............   468
Pollack, Wendy, National Center on Poverty Law, Chicago, 
  Illinois, letter...............................................   483
Primley, Robyn, Records Specialist, Rainbow House Domestic Abuse 
  Services, Inc., Marinette, Wisconsin, letter...................   484
Przesmicki, Sheila, Executive Director, Unidos Against Domestic 
  Violence, Madison Wisconsin, letter............................   485
Roche, Joyce M., President and Chief Executive Officer, Girls 
  Incorporated, Washington, D.C., letter.........................   486
Rosenthal, Lynn, Executive Director, National Network to End 
  Domestic Violence, Washington, D.C., prepared statement........   492
Rumburg, Delilah, Executive Director, Pennsylvania Coalition 
  Against Rape, Enola, Pennsylvania, prepared statement..........   517
Sacred Circle, Karen Artichoker, Director, Management Team 
  Director, Pine Ridge, South Dakota, prepared statement.........   524
Safe Harbor Domestic Abuse Shelter, Mary Fantanazza, Executive 
  Director, Sheboygan, Wisconsin, letter.........................   533
Scruggs, John F., Vice President, Altria Group, Inc., Washington, 
  D.C., letter...................................................   535
Sexton, Edmund M., Sr., Sheriff, Tuscaloosa County, Alabama, and 
  President National Sheriffs' Association, prepared statement...   536
Stewart, Tish, Paralegal, Center Against Sexual & Domestic Abuse, 
  Inc., Wisconsin, letter........................................   541
Stuart, Diane M., Director, Office of Violence Against Women, 
  Department of Justice, Washington, D.C., statement.............   543
Task Force on Family Violence, Carmen M. Pitre, Executive 
  Director and Liz Marquardt, Associate Executive Director, 
  Milwaukee, Wisconsin, letter...................................   556
Tohono O'Odham Nation, Edward Reina, Jr., Director Public Safety, 
  Sells, Arizona, letter.........................................   561
Wilt, Melissa, Director, Public Policy, Men's Health Network, 
  Washington, D.C., prepared statement...........................   563
YWCA USA, Peggy Sanchez Mills, Chief Executive Officer, 
  Washington, D.C., prepared statement...........................   579


           REAUTHORIZATION OF THE VIOLENCE AGAINST WOMEN ACT

                              ----------                              


                         TUESDAY, JULY 19, 2005

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 11:00 a.m., in 
Room 226, Dirksen Senate Office Building, Hon. Arlen Specter 
[Chairman of the Committee] presiding.
    Present: Senators Specter, Hatch, Sessions, Leahy, Biden, 
and Schumer.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. It is 11 o'clock and time to start this 
hearing, but my colleagues are on their way, so we are going to 
wait just a moment or two.
    Let me express my regrets that we had no idea how many 
people would want to attend this hearing. As I walked through 
the hall, there was a long line on one corridor, and turning 
the other corridor, there was another long line. I have reason 
to believe they are all taxpayers--
    [Laughter.]
    Chairman Specter. There are rooms which could accommodate 
more people, so it is unexpected to have this kind of a 
turnout. I am sorry people are in the hallways. The next time 
we reauthorize this bill, in 2010, we will have a different 
room.
    [Laughter.]
    Chairman Specter. We will begin in just a moment or two.
    [Pause.]
    Chairman Specter. The Committee on the Judiciary will now 
proceed with our hearing on legislation to protect women 
against violence.
    At the outset, I commend my ranking member, Senator Leahy, 
for the close cooperation which he and I have enjoyed during 
the first seven months of this year as we look at some very 
daunting tasks in the immediate days ahead with the prospect of 
a Supreme Court nominee to replace Justice O'Connor and we are 
trying to bring the asbestos reform bill to the floor next 
week. We have a hearing on reporter's privilege tomorrow, and 
on Thursday, we will be taking up the PATRIOT Act.
    The legislation which we are considering today is of vital 
importance to America and marks a very decisive shift on the 
way the law treats and protects women against violence. Ten 
years ago, when I cosponsored the bill with Senator Biden, and 
I am pleased to be a cosponsor again with Senator Biden and 
Senator Hatch on the Biden-Hatch-Specter-Leahy-et cetera bill.
    A great deal has happened to improve the situation, the way 
women are treated in America.
    Joe, I was just saying nice things about you before you 
came.
    Senator Biden. Well, I was just saying nice things about 
you to Ms. Hayek here.
    Chairman Specter. In that event, I will let you go first.
    [Laughter.]
    Chairman Specter. I was saying that when the Act was first 
introduced ten years ago, it was a Biden-Specter bill. There 
have been very decisive improvements in what has happened.
    We find today that there are almost four million American 
women, victims of physical abuse a year, and another almost 21 
million verbally or emotionally abused by their spouse or 
partner. Since 1995, when the Violence Against Women Act was 
first introduced, it has enjoyed significant success, 
contributing to a 50 percent decrease in overall family 
violence and a 22 percent decrease in the number of women who 
are killed by abuse.
    This legislation will provide for a substantial increase in 
funding from the $693 million currently authorized annually to 
some $794 million annually, and the breadth of activity of the 
statute will be significantly enhanced.
    Just a word or two on a personal level, recollecting the 
way women were treated not too long ago when I became an 
Assistant District Attorney in Philadelphia. We had a 
Magistrate's Court in existence which heard cases within 24 
hours after the incident, and one of the first cases that I had 
as a fledgling Assistant District Attorney involved an assault 
by a common law husband against a women who had a cut running 
from her forehead down her head, down her neck, and all the way 
to her waist. I had quite a tussle with her that morning as to 
whether she would testify. That was the first case I lost. She 
wouldn't testify, notwithstanding my explanation to her that it 
wasn't a case of her against him, but it was a case of the 
Commonwealth of Pennsylvania and the public dignity and 
interest, but I could not persuade her to testify. The 
mentality was very, very different.
    When I became District Attorney, I had long seen the 
detectives question 20 people in a room with the desks all 
there and a woman came in with a rape complaint was just one in 
a line of a long sequence of witnesses. Immediately, everybody 
turned to listen. That was changed so that interviews were 
conducted in private to the extent possible by women 
questioners, and women were taken to the hospitals for 
photographs and brushing and the preservation of evidence.
    I am down to 34 seconds, so I am going to conclude at this 
point. We have a very impressive array of witnesses, which we 
will come to in due course after we have had opening 
statements.
    I yield now to my distinguished Ranking Member, Senator 
Leahy.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman. I couldn't help but 
notice that there was some comment in the press today about the 
possibility of a nomination to the Supreme Court, some passing 
interest. Having this hearing is a reason why that choice is so 
important. A, as I will say in my full statement, a very, very 
activist Supreme Court, actually the most activist Supreme 
Court in my lifetime, struck down part of the Violence Against 
Women Act on the basis that in the hour or so of debate in the 
Supreme Court, they understood the reasons of the Act far more 
than the months and months of hearings and debates that you and 
Senator Biden and I and others had on this.
    I felt that the enactment of the Violence Against Women Act 
over a decade ago marked an important national commitment to 
survivors of domestic violence, and, of course, the bipartisan 
testimony we will hear today, I hope will help our goal of 
ending domestic violence and dating violence and sexual assault 
and stalking. I am proud to join you and Senator Biden and 
Senator Hatch as an original cosponsor of this, and I 
especially want to recognize Senator Biden for his commitment 
to ending violence against women and children. Like the 
Chairman, I served as a prosecutor and I know how terrible 
these acts of violence can be.
    We have an extraordinary panel of witnesses. We have Diane 
Stuart, who is, of course, the Director of the Office on 
Violence Against Women at the Justice Department. Ms. Stuart, 
we are so glad to have you here. A number of leading advocates 
are here, and I salute all of them.
    The kind of violence we are talking about affects people in 
every gender, race, culture, age, class. It goes across all 
spectrums and it is a crime. It is always wrong, whether the 
abuser is a family member or someone the victim is dating, a 
current or past spouse, boyfriend, girlfriend, acquaintance, 
stranger. We see it everywhere.
    I mean, those that think it never happens in my community, 
it never happens in my neighborhood, let me tell you, and 
everybody in law enforcement will tell you, it happens in your 
community. It happens in your neighborhood. It happens all the 
time.
    And included in the VAWA 2005 are reauthorizations for two 
programs I initially authored to help rural communities battle 
domestic violence. I come from rural America, and I know that 
as bucolic and wonderful as rural America is, with its privacy 
and its often isolation, that same privacy and isolation can 
make it more difficult for both victims and law enforcement. In 
a State like mine, the State of Vermont, our local law 
enforcement agencies rely heavily on cooperative interagency 
efforts combatting this crime. That is why I include the Rural 
Domestic Violence Child Victimization Enforcement Grant Program 
as part of the original VAWA. It makes services available to 
rural victims and children.
    The other one is the Transitional Housing Assistance 
Grants. We know that in a time when the availability of 
affordable housing has sunk to record lows, transitional 
housing for victims is especially needed. It is one thing when 
you have the victim. Oftentimes, you have got to get them 
somewhere safe. Fifty percent of homeless individuals are women 
and children fleeing domestic violence. They may have come from 
a comfortable surrounding. Suddenly, they are fleeing domestic 
violence and this program, transitional housing, is part of 
that solution.
    I have talked about the activist Supreme Court. In the 
United States v. Morrison, the Supreme Court struck down 
portions of the Act. That case involved a young woman who was 
allegedly raped by two classmates while attending college. Our 
law allowed a victim of violence to seek civil remedies when 
the violence was motivated by gender-based animus and we showed 
in our findings, Congress did, that justice is too often denied 
to women and a majority of States supported our law and 
supported the civil remedy provided. By a narrow five-to-four 
vote, the Supreme Court struck down this portion of the 
Violence Against Women Act. I think what they were doing, as I 
said, in their hour of debate on it, they second-guessed the 
majority of States who had looked at it and Republicans and 
Democrats who had worked very hard on it in Congress.
    So that is why it is not only important to this law, it is 
important to all of us, the Supreme Court nominations, of 
course. But I think we have to increase our awareness of the 
problems of violence to save the lives of battered women and 
rape victims and children.
    I still have nightmares occasionally when I think of some 
of the cases I handled. I am sure every one of us who have been 
prosecutors, who are in law enforcement, on this Committee know 
this is important legislation, and Mr. Chairman, I commend you 
for going forward with it.
    Chairman Specter. Thank you very much, Senator Leahy.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Chairman Specter. We will turn now to Senator Biden, 
himself a former Chairman of this Committee, as is Senator 
Leahy a former Chairman. I am the only member of the panel 
today who is not a former Chairman.
    Senator Leahy. But you have got the one that counts.
    [Laughter.]
    Senator Biden. Mr. Chairman, for real, I don't want--
    Chairman Specter. I again commend my colleague, Senator 
Biden, for his leadership in this field for more than a decade 
and for his presence here. As an appropriator, I can tell you 
that he is always after Senator Leahy and me and the other 
appropriators to release more money, which we have. Senator 
Biden?

STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Biden. Mr. Chairman, you know the reason why this 
hearing is so important, but we are into what we call 
reauthorizing. I know that is kind of a technical term. A lot 
of the folks here lobby the Congress, but a lot of folks don't 
know. Reauthorization just means this law is--we want it to 
continue and we put our stamp on it. If we don't reauthorize, 
then we leave it to the vagaries of appropriators everywhere 
whether to fund or not fund this.
    What I worry about is our success. Our success has been so 
stark and our success has been so significant that there are 
those out there saying, why do we have to do more of this? I 
mean, haven't we kind of tackled this thing? It is like cutting 
grass. You have got to cut it once, and that doesn't end it for 
the summer. You have got to go out and cut it every week.
    We have a whole new crop of prosecutors, a whole new crop 
of judges, a whole new crop of providers out there, and the 
money in this legislation, which is better than the last piece 
of legislation, which I am most proud of anything I have ever 
done in my entire life as a legislator was that 1994 passage of 
this bill. We just have to do it again. Failure to reauthorize 
this would be an incredible statement that, in fact, we are 
backing away from what was an historic commitment we made.
    You know, there is no such thing as domestic violence. I 
hate that term, because when we talk about domestic violence, 
it is like people think of a domesticated cat. This is raw, 
raw, raw violence, the worst kind of violence that exists, 
because in almost all those instances, it takes a woman--and 
sometimes a man is the victim--it puts them in a position where 
someone they trusted and loved or are beholden to has abused 
them.
    People always ask me why I am so passionate about this for 
the last 20 years. My dad, God love him, was a general and a 
graceful man, and from the time--he has passed away now, and 
Arlen knew him--from the time I grew up, he had a refrain. He 
talked about--he would say, ``No man has a right to raise his 
hand to a woman or a child.'' There is no circumstance, none, 
zero, none, other than self-defense, no matter what, no matter 
what the challenge is. And part of our psyche, we are just 
beginning to explore here.
    Since 1994, we just began for the first time. Do you 
remember why this didn't pass at first? It didn't pass because 
people said, this is a family matter. This is a private matter. 
It was private.
    Some of the women who helped me get this passed in the 
audience will recall, they are the ones that know what rule of 
thumb means. Rule of thumb comes back from the 14th century, 
when in the common law courts of England a man was able to beat 
his wife with a rod as long as it did not exceed the 
circumference of his thumb.
    We have a lot more to go. We have 72 days to authorize 
this. We have 42 cosponsors. But the reason we do is this man 
right here, this man right here. I want to remind everybody, 
back when this passed--what is that old expression, failure is 
an orphan, has an orphan for a father or mother, and success 
has a thousand parents? Well, everybody now thinks this is 
great, but he was one of seven people, one of seven people who 
stood up to pass this bill the first time. Had he not stood up 
and taken the heat, it wouldn't have happened.
    And then, as the appropriator, he not only gave what we 
asked for, he added monies. He added monies for shelter. He 
added monies for women who are abused. He added a way--because 
they are in prison. This is prison. It is the ultimate prison. 
You are in your own home. It is a prison. You can't leave. You 
can't take your children away. You don't have any money. This 
is the man who has made it happen.
    So I just want to personally thank him, and only the pros 
out here in the press will understand this. Can you think of 
anything, a major piece of legislation that has been 
reintroduced or introduced that a Republican has had a 
Democrat's name go first? Can you think of it? That is the 
measure of this guy. I am serious. I am not joking. That is the 
measure of this guy.
    This isn't a Democrat bill or a Republican bill. I bore my 
colleagues to death because of my passion for this the last 15 
years. I know I am like a broken record. But thank God, thank 
God there are guys like Specter who step up.
    This is about men and women who are abused. Women 
overwhelmingly fall in that category. We are making progress. 
We have so much further to go. I hope, Mr. Chairman, with your 
leadership, and it will be your leadership, it won't be mine, 
that we are able to convince this to be brought up on the 
docket and get this moving, and I personally thank you for your 
gumption and your commitment.
    Chairman Specter. Thank you very much, Senator Biden, for 
those extraordinary comments, but as I said in my statement, 
all the credit goes to you.
    Senator Sessions, would you care to make an opening 
comment?

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. As Reagan said, no matter how far you can 
go if you don't worry about who gets the credit. Sometimes that 
is a good rule for us all to live by.
    Chairman Specter. Good point.
    Senator Sessions. Mr. Chairman, it is a pleasure for me to 
recognize one of Alabama's finest law enforcement officers, Ted 
Sexton. I have known him for many years, know his family. He is 
a progressive, innovative, forceful leader for law enforcement 
in the State. He understands the issues that we are dealing 
with today and others, also. He is Vice President of the 
National Sheriffs' Association, now been elected to the 
Presidency of that Association, 3,000 sheriffs, over 24,000 
members across this nation. So it is a real thrill for me to, 
Ted, have you here before us testifying.
    I know that it is your officers and those police officers 
you work with every day that are going into homes, dealing with 
situations where there is violence that may appear in one 
circumstance to be under control, and who knows, may flare 
right back up and somebody's life be in danger in very short 
order. We also know our law enforcement officers often find 
themselves at greater risk in dealing with family violence than 
most any other kind of violence they deal with.
    We have a sheriff here, Mr. Chairman, that is personally 
experienced. He personally runs a first-rate department and one 
of the best in the State, if not the best. He probably thinks 
it is the best. He has got a first-rate jail that he manages in 
the highest order and I am just impressed with what he has 
done. He has got a number of creative law enforcement programs, 
the Amber plan, the CONES project, Life Savers, school resource 
deputies, and other things that he does to make his sheriff's 
department one of the best in the country.
    Thank you for giving me that opportunity and for your 
leadership on this important issue.
    Chairman Specter. Thank you very much, Senator Sessions.
    Chairman Specter. We now turn to our first witness, the 
Honorable Diane Stuart, Director of the Office on Violence 
Against Women at the Department of Justice. She has an 
undergraduate degree from the University of Pittsburgh, a 
Master's of Science in family and human development from Utah 
State University. She has written extensively and heads a very, 
very important office in our Federal Government.
    Thank you for joining us, Ms. Stuart. In accordance with 
our custom, the statements are limited to five minutes. All 
witness statements will be made a part of the record in full. 
We are giving you as much time as we give the panel members, 
five minutes, so the floor is yours and we look forward to your 
testimony.

  STATEMENT OF DIANE M. STUART, DIRECTOR, OFFICE ON VIOLENCE 
  AGAINST WOMEN, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Ms. Stuart. Thank you, Chairman Specter. I truly appreciate 
that and the opportunity to be here this morning. Thanks also 
to members of Congress for the opportunity to speak to you 
today.
    As a representative of the Department of Justice, I am here 
primarily to urge Congress to reauthorize the Violence Against 
Women Act. The Act should be renewed, and important 
improvements should be made so that our communities can expand 
their prevention efforts, ensure the safety of more victims, as 
has been said before, and hold perpetrators accountable for 
their crimes.
    The mission of the Office on Violence Against Women is to 
provide national leadership in helping communities build 
capacity to reduce violence against women. We administer 
financial and technical assistance to communities around the 
country that are working to end domestic violence, sexual 
assault, dating violence, and stalking.
    The response to the spirit of the Violence Against Women 
Act, specifically of 1994 and 2000, is so, so strong. Since its 
passage, there has been a paradigm shift in how we approach and 
respond to violence against women. That change can be seen in 
what is called a local coordinated community response. This is 
a victim-centered approach rooted in the belief that criminal 
justice officials, victim advocates, community leaders, health 
workers, and others must work in collaboration to respond to 
violence against women.
    One excellent example of a coordinated community response 
is the Family Justice Center. This is a center where the 
majority of services for domestic violence victims are co-
located under one roof. In 2004, we funded the development of 
15 Family Justice Centers under President Bush's Family Justice 
Center Initiative, and I am pleased to announce today that the 
first of these centers is opening tomorrow in Brooklyn, New 
York. The centers in San Antonio, Texas, and Alameda County, 
California, will be opening very soon and others shortly 
thereafter.
    Through the spirit of the Act, the coordinated community 
response, we have learned that victims are safer and justice is 
better served when a shelter worker has a strong working 
relationship with law enforcement and the district attorney, 
when an emergency room nurse knows to call an advocate when 
treating a sexual assault victim, when a prosecutor works with 
law enforcement to build an evidence-based case against a 
domestic violence offender, when a judge, working with 
probation, requires frequent judicial review, supervision, and 
batterer intervention for the abuser in a domestic violence 
case, and when an advocate trains a member of the clergy on the 
dynamics of domestic violence and sexual assault. All of these 
are what make a coordinated community response.
    Through the Office on Violence Against Women's data 
collection efforts, we know that VAWA funds are helping 
communities create these effective coordinated community 
responses. For example, under one of our grant programs, just 
one, in a six-month period of time, we know that more than 
50,000 victims were served. We know that more than 120,000 
services were provided to those victims. We know that nearly 
24,000 individuals were trained. One program, six months. And 
more than 2,600 individuals were arrested for violation of 
protection orders. It is working. This information illustrates 
the reach of VAWA funding in a very, very, very short period of 
time.
    Congress should act now to reauthorize and enhance VAWA 
with the following key measures. Number one, reauthorize 
critical grant programs through fiscal year 2010.
    Two, create a new program for tribes by combining the 
tribal set-asides established for the STOP, Arrest, Rural, Safe 
Havens, and Transitional Housing programs. Based on our 
experience in administering grants to tribes, we recommend 
combining the tribal set-asides to form one tribal grant 
program. As tribes have few resources and little 
infrastructure, this would eliminate an immense administrative 
burden by creating an application process based specifically on 
unique tribal needs.
    Number three, add a provision to all OVW grant programs 
requiring grantees and sub-grantees to maintain confidentiality 
of identifying information about victims served with OVW funds.
    Number four, ensure that no victim pays for a forensic 
exam, even if she or he decides not to cooperate with law 
enforcement.
    And number five, permit grantees to use funds to address 
sexual assault and stalking by amending the Arrest and the 
Rural program statutes.
    I would like to leave you with a quote from the Executive 
Director of a shelter in Tallahassee, Florida, and I quote, 
``We have been able to move the issues of sexual assault and 
domestic violence into the community consciousness. The money 
has changed the way that communities address the issues of 
sexual assault and domestic violence. You cannot put a price 
tag on that. You leave the community forever changed,'' end 
quote.
    Thank you. I would be happy to take any questions.
    Chairman Specter. Thank you very much, Director Stuart.
    [The prepared statement of Ms. Stuart appears as a 
submission for the record.]
    Chairman Specter. We turn now to Mr. Ted Sexton, who has 
already been eloquently introduced by Senator Sessions, both 
being Alabamians, but I will add just a word or two. Mr. Sexton 
is President of the National Sheriffs' Association. He is 
Sheriff of Tuscaloosa County. His numerous professional schools 
include the FBI National Academy and the U.S. Secret Service 
Dignitary Protection Seminar and the National Sheriff's 
Institute.
    Thank you for joining us, Sheriff Sexton, and we look 
forward to your testimony.

STATEMENT OF EDMUND M. ``TED'' SEXTON, SR., SHERIFF, TUSCALOOSA 
 COUNTY, ALABAMA, AND PRESIDENT, NATIONAL SHERIFFS' ASSOCIATION

    Sheriff Sexton. Thank you, sir. Thank you for your kind 
invitation to appear before you today to testify about the 
Violence Against Women Act. I am pleased to be in such 
distinguished company on this panel and offer the views of our 
nation's 3,086 sheriffs.
    As you know, the National Sheriffs' Association strongly 
supports the reauthorization of the Violence Against Women Act 
for the simple reason that the problem of domestic violence 
continues to be a concern to the law enforcement community. I 
am proud to say that just one month ago, we sent a letter to 
Senator Biden expressing our strong support of his legislation 
to renew the Violence Against Women Act. In that letter, we not 
only indicated our support for this Act, but also stated that 
the sheriffs were particularly pleased to see authorized 
amounts for Services and Training for Officers and Prosecutors, 
STOP, and Grants to Encourage Arrest and Enforcement of 
Prosecution Order Improvements increased. It is my hope that 
the Committee will move quickly on this measure, since this Act 
sunsets at the end of September.
    Since the initial passage of this Act, law enforcement 
agencies across the country have made much progress, but there 
is still so much more that we can do. As this Committee knows 
so well, NSA plays a key role in this Act's mandated 
coordinated community response to prevent, investigate, and 
prosecute crimes of violence against women.
    With the help from organizations such as NSA, law 
enforcement has created valuable training courses to teach the 
front-line officers how to deal more effectively with the crime 
as they encounter it. NSA's program in particular focuses on 
rural domestic violence. These rural areas present difficult 
issues and the support structures needed to help victims may 
not be as robust as those in major urban areas.
    Additionally, we have recently expanded this training to 
include dispatchers who are required to assess situations 
before officers can arrive on the scene. Often, a law 
enforcement dispatcher is the victim's first contact with 
someone who can help. It is essential that they be highly 
trained and prepared to help, reassure, and comfort that 
scared, lonely voice on the other end of the telephone line.
    We have been the cornerstone of efforts to bring awareness, 
as well as resources, to confronting the crime. As a result of 
proactive law enforcement addressing this type of crime, we 
have instilled confidence in women who are victims. The 
confidence that the criminal justice system will 
compassionately address their concerns has encouraged more 
women to call for needed help to break the circle of victim.
    Mr. Chairman, my own community of Tuscaloosa County has a 
population of approximately 180,000 and we have seen the number 
of domestic violence cases rise from 3,800 cases in 1997 to 
almost 5,600 cases last year. That increase is not a result of 
abusers seeking haven in Alabama, but rather a direct result of 
support systems that this Act provides to victims through 
community groups, law enforcement, prosecutors, and victims' 
advocates. It is a result of a system that empowers the victim 
with the support and the confidence they need to report the 
crime and take action to protect themselves from further abuse. 
In other words, the Violence Against Women Act works.
    As a first responder, law enforcement officers need the 
tools to effectively assess and diffuse domestic violence 
situations. The responding officers are also the ones who have 
to initiate contact with the victims' service agencies and many 
times the medical services. It is the uniformed officer who 
arrives on the scene that must set the tone of the subsequent 
interaction between the victims of violence, the criminal 
justice system, and the victims' service agencies. The victims 
who have had their self-esteem damaged by the crime of violence 
lean on the uniformed officer to help them in an often 
intimidating first step of finding a way out of the situation.
    In addition and perhaps more frustrating to the front-line 
officer, he is the individual who is called upon repeatedly to 
answer the calls of domestic violence. The first officer on the 
scene is with the victim as she negotiates the criminal justice 
system.
    Like many areas of government, law enforcement is called 
upon to provide more services with fewer resources. Domestic 
violence is an area where our communities cannot afford to lose 
our vigilance. Quoting the DOJ statistics, intimate partner 
violence made up 20 percent of all non-fatal violence against 
females in 2001. Among women who report having been raped, 
physically assaulted, or stalked since they were 18 years old, 
60 percent were victimized by a husband, cohabitating partner, 
boyfriend, or date. The FBI has documented that since 1976 to 
2002, one-third of all female murder victims were killed by an 
intimate partner. In my county, almost half the murders 
committed last year were related to domestic violence. That is 
unacceptable and why we need the continuing support of this 
Act.
    The National Sheriffs' Association recognizes that violence 
against children is a growing problem, as well. Again, speaking 
from the experience of my agency, we have responded to horrific 
crimes. One that I will never forget is a case where a man shot 
three infant children in the head and then turned the gun on 
their mother before killing himself. Another that I will not 
forget is a case where a boyfriend of a young mother fired 
shots at her before barricading himself in the house and 
shooting her teenage daughter as she hid in a closet. These are 
scenes that no law enforcement officer who responded will ever 
forget, and they are scenes that unfortunately are being played 
out every day throughout this country.
    One continuing frustration that NSA has been attempting to 
address is the interoperability of information sources. A fully 
functioning system would allow deputies to access information 
regarding restraining orders and orders of protection from 
abuse issued in other States. This so-called data 
interoperability will also allow deputies to better assess 
whether children passing through the State in the custody of an 
adult are in danger. With so many missing children reports, 
Amber alerts, any tool that can help law enforcement is most 
welcome.
    Most areas of the country are now faced with a 
multicultural and usually multi-lingual community. This raises 
a new issue for law enforcement, how to deal with violence 
against women among an immigrant population unfamiliar with our 
legal system, unsure of local law enforcement, and completely 
unprepared to leave their spouse or partner for fear that they 
will have no assistance whatsoever. Reaching this growing 
number of women is the challenge that faces us in coming years. 
Training programs that address this particular issue are needed 
to help us prepare to meet the challenge.
    The work and training of these law enforcement first 
responders requires a financial commitment. The reauthorization 
of the Violence Against Women Act means that needed funds will 
be appropriated to assist law enforcement and others to deal 
effectively with this terrible crime of violence.
    Chairman Specter. Thank you very much, Sheriff Sexton.
    [The prepared statement of Sheriff Sexton appears as a 
submission for the record.]
    Chairman Specter. Director Stuart, in your testimony, you 
note the importance of biennial reporting, but our records show 
that only one of the nine required reports have been submitted 
by your office. Let me ask you, how soon do you think you could 
submit the other eight reports?
    Ms. Stuart. I thank you for that, Senator. I want to 
reassure you that we are working on them very steadily. There 
are many that are in the process of--some that have left our 
office--
    Chairman Specter. Director Stuart, how soon?
    Ms. Stuart. How soon? Very soon.
    Chairman Specter. Well, I will not ask you a third time, 
but it is, candidly, a little disconcerting when we all know 
the importance of the reports and only one of nine has been 
submitted. See if you can let us have them within the next 30 
days.
    Ms. Stuart. We will certainly do our best. Thank you.
    Chairman Specter. Director Stuart, I note the very heavy 
incidence of battering of Indian women. Almost one out of three 
Indian women will be raped. Indian women are shown to be three 
times as likely as non-Natives to be battered. And I am pleased 
to note, again through Senator Biden's leadership, that this 
reauthorization creates a Deputy Director of Tribal Affairs 
within your office.
    A two-part question. Why are the Indian women so much at 
risk, and what will this new office enable you to do about it?
    Ms. Stuart. We are presently, I think, trying to respond to 
that unbelievably difficult problem. It is a fact--
    Chairman Specter. What accounts for it?
    Ms. Stuart. Probably many things, certainly isolation, 
certainly the inability of individuals to find out information 
of where to go--
    Chairman Specter. And what is your plan of attack with this 
new office?
    Ms. Stuart. Well, in several ways. First of all, as I 
mentioned in my opening statement, to combine the tribal 
programs into one program, I think would really help tribes who 
are seeking out to try to figure out how to end this problem 
and who want to do what they can but don't either, A, know how, 
or B, have too many restrictions to follow. So this one program 
would pull together and help them ease the way so they could 
get the resources that they need. There is certainly lack of 
resources within tribal nations and within reservations.
    Chairman Specter. Let me skip to another subject, Director 
Stuart, because of our limited time. The most recent report 
from the Bureau of Justice Statistics shows that 15 percent of 
intimate partner violence is defined as non-violent 
victimizations against men. As Senator Biden has noted, the 
Violence Against Women Act applies to domestic violence 
irrespective of gender. What efforts are being made by your 
Department to protect men as well as women?
    Ms. Stuart. Certainly, men are eligible for services 
provided under the grant programs within the Office on Violence 
Against Women. Approximately 12 percent of our victims, 
according to the statistics that we are getting in now, are 
men, and more than half--well, no, the majority of our grant 
programs, certainly more than half, are serving men. So men are 
being served and they are receiving those services through our 
grant programs as we speak.
    Chairman Specter. Sheriff Sexton, I note your testimony 
about the number of domestic violence cases has increased 
enormously in your jurisdiction from 1997 to the year 2004, and 
you attribute that to greater sensitivity so that women will 
report what has happened.
    Sheriff Sexton. Yes, sir.
    Chairman Specter. I am pleased to see you attribute that in 
part to the statute which we have. I am pleased to see so much 
media attention here today, because a big part of this issue is 
letting women know that they do have rights--
    Ms. Stuart. That is right.
    Chairman Specter.--and that they can respond and that there 
are agencies which are available to protect them. Do you think 
any increase in domestic violence has been occasioned by the 
fact that Jeffrey Sessions is no longer Attorney General of 
Alabama but has been spending his time as Senator in 
Washington, D.C.?
    Sheriff Sexton. He has trained some very able individuals 
to follow behind him, sir, one that now serves on the 11th 
Circuit Court of Appeals.
    Chairman Specter. Well, we are glad he is here, although we 
don't want to see these murder rates and these violence cases 
spiral.
    My red light is about to go on. I yield now to my 
colleague, Senator Biden.
    Senator Biden. Thank you very much.
    If there is any regret I have about this legislation, it is 
that so many men think that it doesn't apply to them. There is 
a very active gentleman in my state who has been on a crusade--
I say that positively, not negatively--to, quote, ``include 
men.'' Men are included. Men are covered in this legislation. I 
think part of the problem is that it is part of a culture among 
men not to report, as well. So I think we should be making that 
more attractive for men to understand they can access these 
same services. I am going to, for the record, submit a much 
longer statement on that, Mr. Chairman.
    But one of the areas that we go back and focus on, this 
is--we are trying not to commit the sin we all commit when we 
are here long enough, and that is if it was invented by you, 
you stay with it and you don't change it. We are trying to 
figure out what portions of the Act we can make work better, 
what portions of the Act in the past weren't that useful, and 
we have, in effect, retrofitted this. This is a new, improved 
version of what we passed before, and there are a couple of 
provisions, and I just, in the brief time we have, I want to 
pursue with you, Ms. Stuart, and that is in the area of 
stalking.
    The jurisdictions in the States where they have stalking 
laws that say the burden is on--if there is a ``stay away'' 
order issued by a State, and the stalking, the person is told 
to stay away, meaning it can be, depending on the order, you 
can't come within 1,000 feet or you can't come within a certain 
amount of space of the person who you have been stalking, if, 
in fact, it occurs in some States, the man or the woman, 
whoever is doing the stalking, automatically gets thrown in 
jail, bingo. The burden is on them to prove that they weren't 
attempting to intimidate.
    Federal law doesn't say that, and the amendment that was 
incorporated in the Violence Against Women Act, and he is not 
here, but Secretary Cohen, our former Secretary of Defense, was 
a major player in helping me formulate this portion of the 
legislation in the past.
    What we do here is we change, because the number of 
stalkings that occur across State lines, which give it Federal 
jurisdiction--a ``stay away'' order in Delaware, the person 
works in Pennsylvania, the stalker moves from Wilmington, 
Delaware, across the State line to Pennsylvania and intimidates 
or stalks that person, the States get into who has 
jurisdiction. This gives you jurisdiction.
    And so my question is, if you haven't looked at it already, 
I would like you to look specifically at the provision in the 
bill to make sure you guys are signed on to the heightened 
standard or the change in standard we placed in the bill, okay?
    Ms. Stuart. You have tapped on, Senator, an unbelievably 
difficult problem. How do you show that the stalking has been 
happening? And it has been mentioned earlier that people just 
don't have the information that they need, well, to, one, 
recognize they are being stalked. I mean, how many times 
someone would say, you know, that behavior is stalking behavior 
and we need to do something about it. They are just being 
annoyed. They are just being harassed, and it is stalking and 
we need to look at it very, very seriously. I appreciate the 
fact that you have brought it up.
    Senator Biden. Well, Senator Specter and I changed the 
language in the bill slightly. I won't, in the interest of 
time, go into it now. I would appreciate the Department making 
sure they scrub it so we don't get to the floor and find out 
there is some objection to that.
    Secondly, with regard to the Sheriff, and by the way, Jeff 
Sessions obviously is right. He knows you well. I have gotten 
to know you, as well. The sheriffs, more than any other law 
enforcement agency, are the folks who everybody in the 
neighborhood and the community knows, and most of you stand for 
election and you are known and it is a big deal that you would 
take this kind of leadership here. I want to tell you how much 
I appreciate it.
    But tell me about why you think, if you can in a moment--my 
time is up--the funds allowing you to train your personnel in 
this area are useful or important.
    Sheriff Sexton. The simple fact is we still lose a lot of 
police officers every year to responding to domestic violence 
calls. This is an extremely dangerous call for us, and as you 
mentioned earlier, the cycle continues. You cut your grass one 
week--we have new officers coming in constantly. We have the 
older officers that go to investigations come back. So the 
training that our officers receive nationwide is extremely 
important, but this is still one of the most deadly calls that 
our officers go on. To be able to expand the training to the 
dispatchers to be able to tell us, then give us more specific 
information about what is going on and the ability of many CAD 
systems to be able to know the call history, that is all 
important information to us, weapons and the history of abuse 
that has been prior to, as well as one of those issues you just 
talked about that we are having a problem with, which is the 
interstate protective orders or the protection from abuse. That 
is a major issue for us.
    Senator Biden. Thank you very much. My time is up. Thank 
you, Mr. Chairman.
    Chairman Specter. Thank you, Senator Biden.
    Senator Sessions?
    Senator Sessions. Thank you. Senator Biden, those were some 
excellent points.
    With regard, Mr. Sexton, to how your officers respond to a 
domestic violence situation, hasn't it been true in the past 
that sometimes in the emotion of the moment or the fear of an 
officer that the woman might say, if she is the victim, ``Well, 
don't arrest my husband and don't do anything. It is going to 
be all right.'' How are you now training your officers to 
handle that situation?
    Sheriff Sexton. Senator Sessions, I believe you helped 
write the bill in Alabama, but in Alabama, if there is a 
probable cause for the officer to believe that domestic 
violence has occurred, it is a mandatory arrest of--
    Senator Sessions. And so you have trained your officers now 
that if the victim is backing back and doesn't want to press 
charges, that they should press charges.
    Director Stuart, how has the Act helped in encouraging 
women to report violence and do you think--I think that has 
been a critical part of the success that we have seen, is 
women's ability to report and the fact that a police officer 
doesn't walk away even if the victim is maybe suggesting no 
prosecution is in order.
    Sheriff Sexton. Sir, a report will at least be made, and if 
there is any probable cause to believe that she was abused, 
there will be a mandatory arrest.
    Ms. Stuart. Senator, I think the spirit of the Violence 
Against Women Act, which is, as I mentioned in my opening 
statement, a coordinated community response, is part of the way 
or the method or the vehicle by which women are becoming aware 
that they can report. In other words, it is not just, I am 
going to go to a law enforcement officer and I am going to tell 
him about what happened to me, but I also have an advocate on 
my side who is helping me understand what his system is and 
what his system does. And I am going to go to the medical 
facility and I am going to tell a doctor what happened because 
I have an advocate on my side that is going to help me through 
all that.
    So it is the advocate talking to the law enforcement 
officer, talking to the prosecutor, even talking to the judge 
and bringing everybody together so that she is, the person that 
has been victimized understands that they have the resources 
out there. I mean, Senator Specter said it. There are laws that 
can help and it is a crime. So with someone on her side, she is 
able to go through that system, whatever it is, and know to 
expect what is going to happen in the court session, how is it 
going to happen, is he going to go to jail, how am I going to 
be safe, who is going to help me stay safe, the transitional 
housing that Senator Leahy mentioned. All of these things come 
in. And when a community brings all of the elements together, 
then, frankly, individuals are safer.
    Senator Sessions. I visited such a coalition in southeast 
Alabama a couple years ago, and you had mental health people 
there, you had the law enforcement, the prosecutors, the judge, 
one of the district judges was there, hospital people, the 
human services counselors and those kind of people, in addition 
to the safe house, private contributions that have been raised 
in the community to create a safe house for women so they do 
have a place to go, which they haven't had in the past.
    I think a lot of progress has been made. I just want to dig 
into these numbers a little bit, Director Stuart. Sheriff 
Sexton noted that his arrests are up. His complaints are up. 
And we had over a half-a-million victims last year of domestic 
violence and almost 2,000 rapes and assaults were reported. 
However, you note that in the past 10 years, the rate of 
domestic violence, according to the, I believe it is the 
victims' survey, is that--
    Ms. Stuart. The Crime Victimization Survey, yes.
    Senator Sessions. --the Crime Victimization Survey, which 
many say is the best survey rather than just arrests, and we 
will get at that subject right now. It surveys all over America 
to ask who has been victimized in the last year. It showed a 
domestic violence decline rate of 59 percent and a rape and 
sexual assault decline rate of 68 percent. That is pretty 
dramatic.
    Do you think that this effort that has been ongoing here as 
part of the Act that Senator Biden and Senator Specter and 
others have moved and the information that is out there, the 
safe houses that are out there, the fact that police officers 
now are not walking away from scenes but actually arresting 
people, taking them to jail, that this has actually resulted in 
a real decline in some of these assaults?
    Ms. Stuart. Certainly, all of those factors come together, 
and when they all come together, the end result is that more 
are reporting and more arrests are being made, more orders of 
protection are being enforced. It can't be any one thing. Not 
one person is responsible for making an end to violence against 
women. It is everybody doing their part, and so it is all of 
these factors coming in.
    Certainly, the Act has been a strong leader, standing up 
there, showing the Nation that this is the way we need to go 
and we need to work together to end violence against women. So 
I think it is many things. But certainly the Act has been the 
leader.
    Senator Sessions. I don't think there is any doubt that the 
combination of the fact that judges, a lot of them were 
insensitive in the past. Fewer of them are insensitive today. 
Most sheriffs and chiefs of police have been trained in how to 
handle these situations. The situation is much kinder. They 
have safe houses and places that women can go. I just think the 
prosecutors are more attuned to it and the laws are better. So 
I think a lot of these things that have occurred have helped 
actually make a reduction in some of these terrible crimes and 
I salute everybody who has been a part of it. It is something 
that we too often fail to celebrate, the progress that gets 
made.
    Ms. Stuart. I agree.
    Chairman Specter. Thank you very much, Senator Sessions.
    Thank you, Director Stuart and Sheriff Sexton. We 
appreciate your being here, and thank you for your testimony.
    Chairman Specter. We turn now to our second panel and our 
first witness is Ms. Lynn Rosenthal, the Executive Director of 
the National Network to End Domestic Violence, a nationwide 
organization of State domestic violence coalitions which 
supports more than 2,500 local service providers. Ms. Rosenthal 
was recently named President of the National Network to End 
Domestic Violence, which has enabled her to travel around the 
country with community leaders, advocates, and survivors. It 
certainly gives her hands-on experience with this pressing 
problem.
    Ms. Rosenthal, I know we have rushed you to the witness 
table, but if you are ready to begin, or if you want a moment 
to collect yourself--
    Ms. Rosenthal. I am ready, Senator.
    Chairman Specter. Okay. Thank you for being here, and the 
floor is yours.

   STATEMENT OF LYNN ROSENTHAL, EXECUTIVE DIRECTOR, NATIONAL 
       NETWORK TO END DOMESTIC VIOLENCE, WASHINGTON, D.C.

    Ms. Rosenthal. Thank you, Mr. Chairman, Senator Biden, and 
members of the Committee. Thank you for inviting me here today 
to talk about the successes and the future of the Violence 
Against Women Act.
    I was a shelter director in 1993, right before VAWA first 
passed Congress, and I never could have imagined the changes 
that were about to occur. I never could have imagined the local 
sheriff who would go from saying there was no domestic violence 
in his county to asking what he could do to be a leader in the 
fight to stop it. I never could have imagined that law 
enforcement officers, prosecutors, victim advocates, and 
survivors would sit down at the table together to develop model 
policies to address domestic violence. Yet all this happened 
and more. But still, our shelters are full, our hotlines are 
ringing off the hook, and just one day's look at the headlines 
tells us that this problem is still with us.
    From the workplace to the schoolyard, violence against 
women spills out into our streets and local communities. The 
tremendous needs uncovered by this Committee more than a decade 
ago have begun to be addressed, but now is not the time to 
retreat. The issues that we face at the State and local level 
have become more, and not less, complex.
    So I recommend that you do three things in VAWA 
reauthorization. First, shore up existing services and 
programs. The STOP grants are the centerpiece of existing VAWA 
programs. These formula grants to the States bring together law 
enforcement, prosecutors, victim advocates, and the courts to 
develop a coordinated response to the violence.
    For example, in Wisconsin, STOP grant funds helped support 
50 community response teams, and one advocate in Wisconsin said 
that because of STOP grants, the doors were literally thrown 
open so that victim advocates and law enforcement could work 
together to better serve victims.
    But one of the problems I see when I travel around the 
country is that VAWA really trained this whole generation of 
leaders--police officers, judges, shelter workers--but those 
folks are now leaving the system, just normal attrition, but as 
they leave, we are in real danger that the guiding principles 
of VAWA, victim safety and offender accountability, will leave 
with them. So this next round of VAWA really has to be about 
institutionalizing the best practices that have evolved over 
the past decade.
    Second, we ask that you ensure that the needs of uniquely 
vulnerable populations are being addressed. In rural 
communities, a victim might live hundreds of miles from the 
closest courthouse, shelter, hospital emergency room. VAWA 
funding has helped address these challenges.
    I worked on a VAWA grant in rural north Florida and we 
started 17 domestic violence task forces in counties that 
previously had no services at all. In Iowa, Texas, 
Pennsylvania, Nebraska, and Vermont, VAWA funding has 
dramatically improved the services available to victims in 
rural communities. But it is not just rural victims who need 
help. Older women, disabled individuals, native women, 
immigrants, these are all individuals who face additional 
barriers in addressing domestic violence.
    Third, we ask that you provide opportunities for victims to 
rebuild their lives. Although domestic violence is 
fundamentally a criminal justice system problem, the criminal 
justice system alone cannot help victims gain long-term 
security for themselves and their children, and we can't talk 
about long-term security unless we talk about the dramatic 
connection between domestic violence and homelessness.
    A staggering 92 percent of homeless women have been victims 
of severe physical or sexual abuse at some time in their lives. 
The U.S. Conference on Mayors has identified domestic violence 
as a leading cause of homelessness among women. And women 
themselves tell us time and time again that they stay in a 
dangerous situation because they simply have no place else to 
go.
    And it is not just lack of housing resources, although that 
is a significant problem. It is also housing policies 
themselves that put victims in additional danger. Just last 
month, Dorthea Thomas was shot by her ex-boyfriend in her 
apartment in Jacksonville, North Carolina. After being shot 
once, she tried to escape by hurling herself from the second 
story balcony. Her boyfriend shot her five more times. And she 
came home from the hospital five days later to a notice from 
her landlord that she had violated her lease by being too loud.
    Women are being evicted or denied housing for calling the 
police, filing protective orders, or even simply calling for 
help, and this brings us right back to the criminal justice 
system. If victims are afraid to reach out for help for fear of 
losing their housing, our efforts to strengthen the criminal 
justice protections of VAWA are undermined.
    It is VAWA 2005 that can change these dangerous practices 
and bring justice to victims. Thank you very much.
    Chairman Specter. Thank you very much, Ms. Rosenthal.
    [The prepared statement of Ms. Rosenthal appears as a 
submission for the record.]
    Chairman Specter. We now turn to Ms. Mary Lou Leary, 
Director of the National Center for Victims. Her extensive 
experience in the field has been U.S. Attorney for the District 
of Columbia, served as Acting Assistant Attorney General of the 
Office of Justice Programs, and oversaw the U.S. Department of 
Justice's Office for Victims of Crime and Office of Violence 
Against Women. She has a law degree from Northeastern 
University, a Master's from Ohio State, and a Bachelor's degree 
from Syracuse.
    Thank you very much for coming in today, Ms. Leary. We look 
forward to your testimony.

   STATEMENT OF MARY LOU LEARY, EXECUTIVE DIRECTOR, NATIONAL 
         CENTER FOR VICTIMS OF CRIME, WASHINGTON, D.C.

    Ms. Leary. Thank you very much, Senator Specter. Good 
morning to you, Chairman Specter, and to the other members of 
the Committee. On behalf of the National Center for Victims of 
Crime, we really appreciate this opportunity to talk to you 
about this very important piece of legislation.
    The National Center has over 20 years of experience working 
on violence against women issues. Approximately 50 percent of 
all the calls that come to our national toll-free help line 
involve sexual assault, stalking, domestic and dating violence.
    Our Stalking Resource Center, which is funded by the 
Department of Justice Office on Violence Against Women, has 
trained thousands of criminal justice officials and victim 
service providers on how best to combat the deadly crime of 
stalking.
    Let me tell you, when you want to understand the impact of 
VAWA, I think it can best be illustrated through the lives that 
it has changed, including the life of Donna, an incredibly 
courageous woman with whom the National Center works. Donna was 
a victim of stalking, marital rape, and horrific domestic 
violence for over a decade. Her story, which is detailed in my 
written testimony, gives a dramatic before and after picture of 
the impact of VAWA.
    Before VAWA, the system simply failed Donna. But VAWA has 
transformed our country's response to victims and today, as a 
result of that, Donna is safe, she is strong, and, in fact, she 
is the founder of the country's first support group for 
stalking victims, and she also happens to be one of the best 
trainers we have working with our Stalking Resource Center.
    Because you have heard from others today about the impact 
of VAWA on domestic and dating violence, I am going to focus my 
remarks on stalking and sexual assault. In that regard, VAWA 
has encouraged great collaborations between criminal justice, 
victims' service, health care, and other professionals. It has 
trained thousands of front-line professionals about sexual 
violence and stalking. It has funded special prosecutors and 
police units to respond to sexual assault and stalking. And it 
has funded rape prevention and education programs.
    VAWA 2005 would reauthorize these successful programs, but 
even more importantly, it would provide a more comprehensive 
approach to violence against women.
    Two years ago, the National Center and some of our 
colleagues conducted a survey and examined the gaps in services 
to victims of sexual assault. We surveyed the field, and 
overwhelmingly, sexual assault programs told us that they were 
desperately short of the funds that they need to help victims.
    We heard about waiting lists for counseling in Illinois, 
Massachusetts, Pennsylvania, Wisconsin, and many other States. 
In some places, victims are actually being placed in group 
counseling just to give them some kind of support while they 
are waiting for the availability of individual counseling. We 
have to make sure that when victims of sexual assault reach out 
to us, they find the help they need.
    Many of this Committee's members come from States that have 
large rural areas, and we heard Senator Biden speak about that 
before. Rape crisis centers in such areas across the country 
are really struggling to serve multiple counties with very 
little staff. Many rural areas have no services at all. In some 
parts of Arizona, rape victims have to travel an average of 250 
miles to get to the closest rape crisis center. And in Iowa, 
they are traveling for over 100 miles just to get services 
after that kind of trauma. In many places, victims simply 
cannot make that trip, so they suffer alone.
    Rape crisis centers also told us that while their 
communities include many underserved populations, such as 
racial and ethnic minorities, victims with disabilities, they 
have no funds at all to extend their outreach or to develop 
specialized services.
    In response to this overwhelming need, VAWA 2005 would 
provide increased resources to serve sexual assault victims. 
For instance, for the first time, a dedicated Federal funding 
stream for sexual assault programs through the proposed Sexual 
Assault Services Act, SASA, that would provide direct services 
for sexual assault victims, would also promote targeted 
services to reach these special underserved populations. It 
would also help the Native American community, where, as we 
heard before, Native American women experience sexual assault 
at a rate nearly double that of other women. But services for 
them are sorely lacking.
    VAWA would also include a set-aside for services to rural 
sexual assault victims. It would improve our response to 
stalking by amending two Federal code provisions used to 
prosecute them. And those amendments would allow prosecutors to 
keep pace with changing technology and would redefine the harm 
a victim must sustain before the Act constitutes stalking.
    My time today does not allow me to touch on all of the many 
other important provisions of the bill that you and your 
colleagues have crafted so carefully, but the National Center 
wants to commend this Committee for its continuing dedication 
to ending violence against women. We especially thank Chairman 
Specter, Senators Biden and Hatch for their longstanding 
commitment to this issue.
    I really believe that with the support of Congress and 
particularly with the front-line work of thousands of advocates 
and criminal justice professionals across this country, 
Americans can be confident that we will build on the success, 
expand our reach, and work to end sexual assault, stalking, and 
domestic violence in this country. Thank you.
    Chairman Specter. Thank you, Ms. Leary.
    [The prepared statement of Ms. Leary appears as a 
submission for the record.]
    Chairman Specter. We have been joined by Senator Hatch, 
himself the former Chairman of this Committee. It is worth 
noting that we have many Committees meeting simultaneously, so 
it is just not possible for all Senators to be present at all 
hearings. I would like to yield now to Senator Hatch for an 
opening statement. He is the principal cosponsor of the 
legislation.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Thank you so much, Mr. Chairman. I welcome 
all of you to the Committee and I apologize I couldn't be here 
right off the bat because I was over in the energy conference 
over in the House. I did have to appear there for a while, and 
I got here as soon as I could.
    But I want to thank you, Mr. Chairman, for holding this 
hearing. This is a very important hearing, as far as I am 
concerned. I would like to say just a few words on behalf of 
this legislation.
    I would also like to thank my dear colleague, Senator Biden 
from Delaware, without whose leadership we wouldn't be as far 
along as we are and maybe this Act would never have become law 
if it hadn't been for his leadership, so I am very grateful to 
him and for all that he has done. We have had a great 
relationship and a friendship through all these years and we 
are both going to continue to fight together, along with our 
distinguished Chairman who also is a strong supporter of this 
legislation.
    I might add that Senator Biden's advocacy has raised the 
national awareness of these issues very, very much. I proudly 
cosponsored this legislation with him and have helped to fight 
it through back in 1994 and the year 2000, and because of its 
successes, we worked to reauthorize VAWA as two people, along 
with a lot of others in the Senate and House who really believe 
in this work.
    VAWA has succeeded for two very important reasons. First, 
it sends a powerful message that domestic violence is a 
national problem. And second, it provides a coordinated 
approach to domestic violence, one respectful of State 
authority that brings together Federal agencies with local law 
enforcement and service providers.
    Prior to VAWA, domestic violence and sexual assault were 
under-reported and under-enforced. These were under-reported 
and under-enforced crimes, and I am pleased that VAWA has 
helped to turn that around. It really has made a great 
difference. I am convinced of that. In short, VAWA has 
contributed to a sea change in our attitude toward these 
crimes.
    The most recent National Crime Victimization Survey showed 
that non-fatal violent victimizations declined by 49 percent 
for women between 1993 and 2001. Incidents of rape were down 60 
percent since 1992, and attempted rape is down by 57 percent. I 
recognize that there are probably a number of factors that have 
contributed to these steep declines, but there is no doubt in 
my mind that VAWA has been an important one of those factors.
    In my own home State of Utah, our Domestic Violence Council 
recently reported that the State now has 22 local coalitions or 
coordinating councils addressing domestic violence and covering 
every county in our State. There are now 16 shelter programs 
and 40 domestic violence victim advocate programs in my State 
of Utah. We now have 59 licensed domestic violence treatment 
providers, and in 2004, there were 38 separate programs in Utah 
supported by VAWA funding. In some of the small communities in 
my State, even limited VAWA assistance can mean the difference 
between staying in a violent home or being able to go to a 
shelter for the night.
    I started what is known as the Utah Families Foundation. We 
have given millions of dollars over the years to every program 
for women in jeopardy and battered women's shelter in Utah, as 
well as children's programs. I feel so deeply about this.
    I have seen what VAWA is capable of doing in my own home 
State and I am convinced that this legislation is deserving of 
reauthorization and expansion for another five years. But in my 
opinion, we still have a long way to go. According to the 
recent Bureau of Justice Statistics report, 40 percent of 
domestic violence cases go unreported. And in Utah in 2004, 
1,592 families requesting shelter had to be referred to other 
communities because the local shelter was full.
    In spite of all of our efforts, in 2004, 23 Utah citizens 
lost their lives to family or dating violence. Now, that is 
simply unacceptable.
    We have turned the corner, but there is still no doubt in 
my mind there is much heavy lifting to do, and I understand 
that there are some who remain critical of VAWA. They believe 
that this is a State issue. I understand this belief, but I 
respectfully have to disagree. As a conservative, I understand 
the limits on Federal power. I not only believe that the reach 
of the Federal Government is limited by the Constitution, but I 
also understand that, as a practical matter, the Federal 
Government is not capable of remedying every social ill. 
Domestic violence remains a State crime that requires a local 
approach and the role of the Federal Government is necessarily 
limited. But domestic violence remains a serious criminal issue 
that demands a limited Federal response.
    When people live in fear, when they are not safe in their 
own homes, when they have to worry about their children growing 
up in a violent atmosphere, we do not keep the promise of 
America. We cannot turn our backs on these vulnerable 
communities and we should never turn our backs on the small or 
weak.
    That being said, I welcome other voices into this debate. 
VAWA has always been bipartisan legislation, but when it first 
became law, there was not as much conservative engagement with 
the issue as there is today. I am glad to see that groups of 
varying political stripes are becoming involved in this issue.
    Domestic violence is not something that can be solved by 
any one approach. As with most policies, a wide array of ideas 
contributes to better legislation. I welcome, personally, all 
voices in making VAWA a better bill and its programs more 
effective.
    Finally, I want to welcome all of those testifying today, 
but I do want to single out Diane Stuart. Today, she is the 
Director of the Office of Violence Against Women, but her roots 
are in Utah. Prior to her appointment, Ms. Stuart was the State 
Coordinator for the Utah Domestic Violence Cabinet Council. She 
has worked as a domestic violence victim advocacy specialist in 
the Division of Child and Family Services for the State of Utah 
and is the Executive Director of the Battered Women's Shelter 
and Rape Crisis Center in Logan, Utah, where she had hands-on 
experience. She worked in the trenches trying to combat 
domestic violence, and I am proud of the work that she has done 
in Utah and nationally.
    I just want to say I am also proud of you, Ms. Rosenthal, 
for the work you are doing, you, Ms. Leary, for the tremendous 
work you are doing, Mr. Carr, all of the law enforcement people 
who are appearing today, and Salma Hayek. I have been a fan for 
a long time. I just want you to know that it makes a real 
difference to these issues when people like yourself, who are 
well known, well loved, and well respected take the time to 
come and become an advocate for women. So I am grateful to have 
you here and just want you to know that we appreciate you 
coming, and I am appreciative of you, Mr. Chairman, for giving 
me this time.
    Chairman Specter. Thank you very much, Senator Hatch.
    We now turn to Mr. M.L. Carr, former NBA player and coach, 
currently President and CEO of the youth foundation called 
WARM2Kids, a charitable foundation which offers unique 
celebrity visits and lessons for life and rewards for team role 
models with scholarship opportunities. He is also a board 
member of the Family Violence Prevention Fund.
    Thank you for coming today, Mr. Carr, and we look forward 
to your testimony.
    Senator Hatch. Mr. Chairman, can I just say one thing? I 
have been a big fan for years, and I will tell you, you have 
made such a big difference in so many lives. I have watched you 
a lot of times and just want you to know that.

STATEMENT OF M.L. CARR, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
 WARM2KIDS, AND SPOKESPERSON, FAMILY VIOLENCE PREVENTION FUND, 
                   SAN FRANCISCO, CALIFORNIA

    Mr. Carr. Thank you so much. That is great coming from 
somebody from Utah.
    [Laughter.]
    Senator Hatch. What do you mean by that? You are not 
against the Jazz, are you?
    Mr. Carr. I thought there would be a comment about Malone--
    [Laughter.]
    Mr. Carr. Thank you so much for that. Good morning. My name 
is M.L. Carr and I would like to thank you, Chairman Specter 
and Senator Biden, for holding this hearing and for allowing me 
to address this critically important issue.
    I greatly appreciate your efforts, combined with the 
efforts of you, Senator Hatch, to introduce the Violence 
Against Women Act of 2005. I commend all of you on your 
longstanding commitment to ending violence against women.
    Some of you may recognize me from my days with the Champion 
Boston Celtics, but today, I speak to you as President and CEO 
of a company called WARM2Kids. WARM2Kids is an online 
educational tool based on youth development and mentoring 
programs. Our focus on prevention and active discussion is what 
brings me here.
    Today, I also speak to you on behalf of the Family Violence 
Prevention Fund. As a board member, I have learned so much 
about the ever-present issue of violence against women.
    WARM2Kids works with Family Violence Prevention Fund and 
the National High School Athletic Coaches Association to create 
the ``Coaching Boys Into Men Playbook,'' a book that details 
the activism called for in the Coaching Boys Into Men public 
service campaign, developed in partnership with the Advertising 
Council and the Waitt Family Foundation.
    My focal points today are several new provisions in the 
Violence Against Women Act of 2005, especially those focusing 
on prevention and the ways in which adults, particularly men, 
can serve as role models to other men and young boys. There are 
two main ideas that seem prominent to me in the new provisions, 
and they are prevention, which I believe means opening active 
dialogue about an issue before it becomes a problem, and 
adults, especially men, as role models.
    The name of my company, WARM2Kids, is an acronym for We are 
All Role Models to Kids. I truly believe that, and that is also 
why I am here today. Some of us have had a greater opportunity 
to shape the lives of young people. As a professional 
basketball player and coach, I saw firsthand the opportunity 
that sports figures and coaches can have to influence youth, 
and I saw what can happen when they do not have positive role 
models. VAWA 2005 aims to open the necessary dialogue and 
extends the opportunity to shape the lives of our children's 
future to every concerned adult.
    See, basketball is all about numbers. If you don't put up 
impressive numbers, you are not going to be champions. Here are 
some numbers I want to leave with you. Up to ten million 
children witness domestic violence annually, with tragic 
results. They are much more likely to become both victims and 
perpetrators of violence. They also experience notably 
increased rates of depression, suicide, drug and alcohol use, 
as well as a higher rate of incarceration. Two-thirds of all 
sexual assaults happen against children under the age of 18. 
The highest rate of domestic violence exists among young people 
between the ages of 16 and 24. These are not good numbers that 
you want to have up on your board. We should find, and we need 
to find champions, like all the people behind VAWA, to work 
against these statistics.
    Our young people are witnessing violence, experiencing 
violence, and in many cases, growing up to perpetrate the same 
violence they witness in their families and in their 
communities. We can no longer be satisfied with locking people 
up and saying they didn't get away with it. If the violent act 
did happen, then they have already gotten away with it, 
according to the victim. We must end violence before it starts.
    The new VAWA helps us to do that. It provides program 
funding for children who have grown up witnessing violence, 
support for families at risk for violence, and for the first 
time, it targets resources toward men and boys to help change 
the behavior and attitude of other young men.
    See, this is my life's work. The mission of my company, 
WARM2Kids, is to inform, instruct, and inspire our youth to 
make positive life decisions. But today, you are my focus. We 
can inform the world that violence can be prevented. The Family 
Violence Prevention Fund is here because VAWA provides a means 
to instruct all of us in the development and support of 
innovative programs that make the connection between adults and 
children. Together, we can inspire our youth and our nation to 
stop the violence.
    Lives will be changed when we get behind this effort. Let 
me give you some more numbers. In November 2001, 29 percent of 
men were talking to their sons about violence against women. 
That number has increased to 41 percent today. The progress 
shows that efforts like VAWA are working, but no one, not one 
of us that are speaking here today, will rest until that 
championship number is attained, 100 percent.
    We need VAWA to target specific programs to young people 
and give adults in their lives--parents, teachers, coaches, 
mentors--the tools to teach alternatives to violence. Teachers 
and principals are telling us that they don't know what to do 
when they witness a violent dating relationship. Parents are 
telling us that they want to talk to their kids, but don't know 
how. That isn't good enough. We can no longer ignore the trend.
    I am going to leave you with a few more numbers. Nineteen-
ninety-four, the original legislation was introduced and you 
got behind it. Two-thousand, adding services for people with 
disabilities, immigrants, rural and elderly women, once again, 
you got behind it. The most important number, 2005--this is 
your chance to become a champion.
    I urge you to get behind the Violence Against Women Act of 
2005. Get behind this once again. You are all role models, and 
I thank you for allowing me to come speak.
    Chairman Specter. Thank you very much, Mr. Carr.
    [The prepared statement of Mr. Carr appears as a submission 
for the record.]
    Senator Biden. Mr. Chairman, three seconds. I don't know 
whether you are a Democrat or a Republican, but I hope you 
choose to come up here some day.
    [Laughter.]
    Mr. Carr. I was hoping to run for Vice President along with 
you.
    Senator Biden. Oh.
    [Laughter.]
    Mr. Carr. Thank you for that nice comment. Thank you.
    Chairman Specter. Senator Biden has opened the door, Mr. 
Carr. Are you a resident of Massachusetts, before I endorse 
you?
    Mr. Carr. I am a resident of Massachusetts.
    Chairman Specter. Well, let me second Senator Biden's 
endorsement.
    [Laughter.]
    Mr. Carr. You have two very able Senators in Senator 
Kennedy and Senator Kerry.
    Chairman Specter. We will now turn to our final witness, 
Ms. Salma Hayek, a celebrity, actress, 20 films, an Oscar 
nomination for her performance in ``Friday.'' She has utilized 
her status to be an advocate in the fight against violent 
crime. Working with the Avon Foundation on the Speak Out 
Against Domestic Violence Program, she has helped the awareness 
and prevention and support for victims.
    Thank you for joining us, Ms. Hayek, and we look forward to 
your testimony.

 STATEMENT OF SALMA HAYEK, AVON FOUNDATION, NEW YORK, NEW YORK

    Ms. Hayek. Thank you very much. Good morning. First of all, 
I would like to say I am an actress and I really want to thank 
you, Chairman Specter and Senator Biden, for including my voice 
in this hearing.
    Not too long ago, a couple of months ago, I had to do some 
research for a part and I went to a women's jail in California. 
I talked to 13 women that were in jail for life. They had a 
lifetime sentence. And my research had nothing to do with 
domestic violence at all. I was trying to get a little bit in 
the psychology of a criminal mind and murder, all this. And I 
was very surprised to see how crucial it was for every single 
one of these women, their background in domestic violence and 
sexual abuse--in most cases, both--how important those episodes 
of their lives were in them taking the journey that got them 
there. And I was completely distracted from my research because 
sitting with them personally, hearing them out, it was so 
moving and compelling.
    And then I asked myself, why am I surprised? I have been 
working with domestic violence for several years now. As you 
said, right now, I am part of the Avon Foundation in Speak Out 
Against Domestic Violence. I hear these numbers all the time. I 
know about these issues. Over 90 percent of women in jail are 
victims of domestic violence or sexual abuse. Over 80 percent 
of men in jail have a background of domestic violence.
    But certainly we hear the numbers, but when we think about 
domestic violence, the picture in our head, it is a battered 
woman. It is a broken home, a victim that has been beat up many 
times to death. I believe that this is the wrong image for 
domestic violence because the effect of what happens in that 
house, the violence spreads much further than the walls that 
contain that home.
    A lot of us think, you know--I, personally, I am not a 
victim of domestic violence. It is not in my background. But I 
care profoundly about this issue because we are all victims of 
this horrible epidemic as long as we live in a society that has 
such high numbers. One out of every three women has been a 
victim of domestic violence. Imagine how many American families 
are participating in this epidemic.
    So I am a victim. Everybody can be a victim because what 
these kids learn in those homes, what they see, the association 
with violence and how it becomes part of their normality and 
later on part of their expression of themselves in society 
affects all of us. You don't know if your child is going to be 
walking down the street and is going to be killed by somebody 
who had this unfortunate background.
    I believe that America very strongly strives to be a nation 
of security, safety, so that we hear about safety all the time. 
Safety, progress, and family values. However, one out of three 
women--
    Chairman Specter. Ms. Hayek, may I interrupt you for just a 
moment? They just started a vote, but I think our proceedings 
will be most orderly if I excuse myself and go to vote and 
return.
    Ms. Hayek. Yes.
    Chairman Specter. Let me yield to Senator Hatch to conduct 
the hearing, calling next on Senator Biden and then Senator 
Hatch for questioning, and I will return momentarily.
    Senator Biden. But you can keep going.
    Ms. Hayek. All right. Thank you.
    How can we feel safe if such a high percentage of American 
families don't feel safe in their own home? What kind of values 
can the children of America's future learn in a home where 
their mothers are broken down to lose completely their self-
esteem, they are living in fear. Self-dignity, self-respect, 
and respect for others--these are not values that are taught in 
these homes. And how can they be productive to society when 
they are part of this background? So what I am saying has a lot 
to do with what you are saying, and how can we progress as a 
country?
    So I think that it is very important that we all 
participate in the fight against domestic violence, that we 
make these people know that we care. The private sector is 
doing its part and the nonprofit organizations are doing their 
part. It is so important that the government continues to do 
their part, because I see these as a tripod. We need to work in 
unity to keep it stable and balanced.
    If the government takes away one leg, the efforts of so 
many people and so much money that has gone in it will fall 
apart. Without the financial backing of the government, VAWA 
not only cannot continue to manage this crisis, but most 
importantly, it cannot transform it into productivity and 
progress.
    So I believe that to support American families' right to 
stability and safety and hope and love, we must renew and 
continue to improve the Violence Against Women Act. Thank you 
very much.
    Senator Hatch. [Presiding.] Thank you so much.
    [The prepared statement of Ms. Hayek appears as a 
submission for the record.]
    Senator Hatch. We will turn to Senator Biden for any 
questions he might have.
    Senator Biden. Thank you. I have a couple questions, but I 
will be very brief because your collective testimony was as 
good as I have heard on this subject.
    Salma, your testimony is compelling. At the risk of getting 
in a little bit of trouble, we always welcome the input of 
celebrities because it attracts attention to our issues that we 
care deeply about. But from my getting a chance to know you a 
little bit and hearing you today, it is obvious it means a 
great deal to you, and there is a big difference, a stark 
difference between a celebrity using their celebrity because 
they generically want to help and someone who feels it in their 
gut. I want to personally thank you.
    And M.L., you have had a heck of a career, and for you to 
take on this new effort, it is obviously not what you might 
call a big money maker and it is not something that is done for 
any other reason than your observation of what happens.
    The thing that you both said was your recognition of the 
direct connection between living in a home where violence is a 
daily practice and it becoming a learned behavior. Other than 
the Lord coming down and changing our brains so that they are 
not able to be stimulated by drugs, the most significant thing 
that could happen to change the culture of violence in the 
world, and I say the world because we have an international 
treaty which you have been pushing, which I won't get to--
    Ms. Hayek. Yes.
    Senator Biden.--that is in my other hat, my other 
Committee. But it is if we were able to change the 
circumstances in the home, literally. I think you both laid out 
how clearly there is a correlation between us being victims, 
those of us who, thank God, never were personally victims, we 
are all victims of this violence.
    But let me turn to the two folks I refer to as pros here. I 
just think your testimony about the change that has taken place 
since 1994 when you were doing this is really compelling. I 
would like you both, and Mary Lou, you, as well, in the two-
and-a-half minutes I have left, yield to you to speak to me a 
little bit about the stalking issue.
    Now, I know there are 100 issues we could talk about, and 
by the way, thank you for your help on the hotline and 
everything else you are doing, but talk to me about stalking, 
and if you have any examples based on States that you have 
worked in--you have worked in all 50--where there may be a 
better mousetrap that has been built than somewhere else and 
whether or not you think we address it sufficiently in this 
legislation, and I will yield.
    Ms. Leary. I will speak to that, especially since the 
National Center has a Stalking Resource Center. We do a lot of 
work in this area. You know that one in 12 American women and 
one in 45 men will be stalked in their lifetime. It is really 
quite astounding.
    I can tell you that oftentimes when victims or concerned 
friends or family members call our help line, they describe 
behavior that makes them anxious, depressed, sick, worried, but 
they don't understand what is really happening. They don't 
understand that what is happening to them is stalking behavior 
and it is a crime.
    It is just amazing to me how often when we say, this sounds 
like stalking, a victim will say, ``Really? What is that?'' in 
terms of a legal definition. It is quite astounding.
    I will say that we have also learned that stalking is so 
much more than the ex-boyfriend or girlfriend following an 
individual victim around, trying to reengage them in the 
relationship. It takes many insidious forms, and increasingly, 
it has--stalkers are using very sophisticated technology in 
order to stalk--installing spyware on your computer so that 
they can track all of your interactions on the Internet, your 
purchases, your e-mails and so forth, and then using that 
against you, forwarding e-mails to people at your job, 
broadcasting your whereabouts, your purchases, your reading 
habits and so on, or installing GPS in your car so that you 
will show up at the grocery store, at your local church, 
wherever and there is the stalker and you can't imagine how the 
stalker knew that you were going to be there.
    It is really terrifying, and I will tell you that as a 
prosecutor for many, many years, I always felt that those 
criminals were way ahead of law enforcement in terms of their 
sophisticated use of technology. We are particularly seeing 
that in stalking. So I am happy that this legislation amends 
the statute so that prosecutors have more effective tools, I 
think, to address technology through VAWA 2005.
    And I am also pleased to see that substantial emotional 
harm to the victim has been added, because it has been my 
experience, both as a prosecutor and a victim advocate, that 
stalking does take many insidious forms, that a victim's life 
may be totally disrupted to the point where the victim has to 
move. Fifty percent of stalking victims take pretty dramatic 
physical action in response to stalking, like moving to another 
place, changing jobs, going to a different church, altering all 
of their routines. They don't necessarily fear death or bodily 
harm, and sometimes, in fact, in the average case, stalking 
goes on for almost two years. It goes on and on, and they don't 
necessarily fear death, but their lives are totally disrupted 
and they are interfered with in the most insidious and 
frightening ways.
    So just because you don't fear death or serious bodily harm 
does not mean that you are not a victim. You are being 
victimized in a very serious, disruptive, and harmful way, and 
so I am glad to see that the statute has been amended to allow 
prosecutors to deal with the problem before it gets to the 
lethality stage.
    Senator Biden. Ten more seconds, Mr. Chairman, with your 
permission. You know, lots of times, men say to me, aren't you 
going overboard on the stalking area? I say, when you were in 
sixth grade and you got on the school bus and you knew the 
bully was waiting for you in the schoolyard, how did you act, 
you horse's tail? How did you do it? This is real simple human 
psychology that is devastating many people's lives.
    My time is up, but Lynn, I guess I have run over the time 
so you can't respond at this point, but I will ask you later.
    Senator Hatch. Thank you, Joe.
    Before I turn to Senator Schumer, let me just compliment 
all four of you. You have been tremendous witnesses here today. 
It has meant a lot to us and we will pay strict attention to it 
and I believe we will get this bill through, as usual. In fact, 
they had better stay out of our way. We are going to get this 
through, it is just that simple. I just admire each of you for 
the work that you are doing. You are all pros, as far as I am 
concerned. And frankly, M.L., to see you doing this is a 
wonderful thing. We need more men like you in our society, and 
we could use a good guard out there in Utah right now. We have 
got a couple young guys that are going to be real great 
someday.
    [Laughter.]
    Senator Hatch. Ms. Hayek, we are grateful for you for your 
very scintillating testimony. It was great testimony that you 
gave.
    Ms. Hayek. Thank you very much.
    Senator Hatch. You two have done such great work. We just 
want to pay as much respect to you as we possibly can. We are 
grateful to you. We are grateful for what you do. We are 
grateful for the way that you are advocating these issues that 
are very important to all of us, and God bless all four of you.
    I am going to turn to Senator Schumer. Joe and I are going 
to have to go vote, and Senator, you will hold the fort until 
Senator Specter returns.
    Senator Schumer. Thank you, Mr. Chairman. I have not voted, 
either, so I am going to have to be brief.
    Senator Hatch. Oh, I am sorry.
    Senator Schumer. I just wanted to thank all of you for 
being here, Ms. Hayek, a New Yorker, and just--or at least 
representing a foundation in New York--
    [Laughter.]
    Senator Schumer.--Avon Foundation.
    I just wanted to say this. Your being here, just talking 
about this problem thoroughly and openly, which always is swept 
under the rug, has huge significance. So many people--I know 
people who lived in households where their mom was abused, and 
when you can't talk about it and you live with it inside you, 
you are just locked in. The fact that you are all here and the 
fact that we talk about it openly, the great work Senator Biden 
did in the Senate. I carried the bill in the House, although I 
have to say it was his brainchild more than anybody else's. It 
is just amazing.
    I just point out, I am from Brooklyn. We had two famous 
Brooklynites write about their experiences just recently that 
was shocking. Joe Torre, the great coach of the New York 
Yankees, the manager, said when he--and he lived a few blocks 
from me. And when he would walk up to his house and see that 
the car was home, he would go back. He wouldn't go in his house 
because he knew his father was home and might be beating his 
mom.
    And we had Joe Hines, who is now our District Attorney and 
has done a great job about this, talk about when he was about 
ten or 11 years old, he had to tell his father he was going to 
call the police unless the father stopped beating up his 
mother.
    Ms. Hayek. We are opening the first Justice Center in 
Brooklyn.
    Senator Schumer. Which is so important. So I am not going 
to ask questions. I will submit them in writing. I want to 
thank all of our witnesses for being here. But just keep 
talking about this, because that is, in part, how we solve the 
problem. Thank you.
    Senator Biden. Mr. Chairman, with your permission, one more 
comment.
    Senator Hatch. Sure. Go ahead.
    Senator Biden. The famous Justice Oliver Wendell Holmes 
once said, and it applies here more than any other place, I 
think, the best disinfectant is sunlight. This is what you are 
doing. It is a big deal. Thanks.
    Senator Hatch. Thank you so much.
    Ms. Hayek. Thank you so much.
    Senator Hatch. I am not sure Senator Specter is going to be 
back here, so I think what we will do is end the hearing and 
thank you all for your participation.
    Senator Biden. Thanks for your help.
    Senator Hatch. Thank you.
    [Whereupon, at 12:41 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
